No. 19A
IN THE SUPREME COURT OF THE UNITED STATES

David Zachary Morgan,
Applicant,

Vv.

State of Washington,
Respondent.

PROOF OF SERVICE

I, Amir H. Ali, hereby certify that Iam a member of the Bar of this Court,
and that I have this 26th day of July, 2019, cause the Application for an Extension
of Time Within Which to File a Petition for a Writ of Certiorari to be served via
first-class mail postage pre-paid and an electronic version of the document to be
transmitted via electronic mail to:

Seth A. Fine, Deputy Prosecuting Attorney

Snohomish County Prosecutor's Office

3000 Rockefeller Avenue, M/S #504

Everett, Washington 98201

Telephone: (425) 388-3333
sfine@snoco.org

July 26, 2019 LE ‘Ali¢

Counsel of Record
